APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals for the
State of Oklahoma (March 25, 2021) ....................... 1a
District Court of Tulsa County, State of Oklahoma, Amended Findings of Fact and Conclusions
of Law (Signed November 5, 2020, Filed November
6, 2020) .................................................................... 12a
Stipulations
(September 25, 2020)........................................ 17a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 19a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS FOR THE STATE OF OKLAHOMA
(MARCH 25, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JOHNNY EDWARD MIZE, II,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2019-68
An Appeal from the District Court of Tulsa County
the Honorable Dawn Moody, District Judge
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge
OPINION
ROWLAND, VICE PRESIDING JUDGE:
Appellant Johnny Edward Mize, II, appeals from
his conviction in Tulsa County District Court, Case
No. CF-2017-3891, for First Degree Manslaughter
(Heat of Passion), in violation of 21 O.S. 2011, § 711(2).

App.2a
The Honorable Dawn Moody, District Judge, presided
over Mize’s jury trial and sentenced him to twentyfive years imprisonment. Mize appeals raising the
following issues:
(1) whether the evidence was insufficient to disprove self-defense beyond a reasonable doubt;
(2) whether the trial court gave unnecessary
jury instructions which confused and mislead
the jury;
(3) whether the prosecutor injected personal
opinion into closing arguments and vouched
for the credibility of a State’s witness;
(4) whether the State of Oklahoma had jurisdiction to prosecute him;
(5) whether he received the effective assistance
of trial counsel;
(6) whether his sentence was excessive; and
(7) whether cumulative error requires relief.
We find relief is required on Mize’s jurisdictional
challenge in Proposition 4, rendering his other claims
moot. Mize claims the State of Oklahoma did not
have jurisdiction to prosecute him. He relies on 18
U.S.C. § 1153 and McGirt v. Oklahoma, 591 U.S. ___,
140 S.Ct. 2452 (2020).
On August 19, 2020, this Court remanded this
case to the District Court of Tulsa County for an evidentiary hearing. The District Court was directed to
make findings of fact and conclusions of law on two
issues: (a) the Indian status of his victim, Jake Ulrich,
and (b) whether the crime occurred within the
boundaries of the Muscogee Creek Reservation. Our

App.3a
order provided that, if the parties agreed as to what
the evidence would show with regard to the questions
presented, the parties could enter into a written
stipulation setting forth those facts, and no hearing
would be necessary.
On September 25, 2020, the parties appeared
before the Honorable Tracy L. Priddy for a status
conference. The parties agreed at the status conference
and entered written stipulations in which they agreed:
(1) that the victim, Jake Ulrich, had some Indian
blood; (2) that he was a registered citizen of the
Cherokee Nation on the date of the charged offense;
(3) that the Cherokee Nation is a federally recognized
tribe; and (4) that the charged crime occurred within
the Muscogee Creek Reservation. The district court
accepted the parties’ stipulations.
On November 16, 2020, the District Court filed its
Findings of Fact and Conclusions of Law. The District Court found the facts recited above in accordance
with the stipulations. The District Court concluded that
the victim, Jake Ulrich, was an Indian under federal
law and that the charged crime occurred within the
boundaries of the Muscogee Creek Reservation. The
District Court’s findings are supported by the record.
While the State conceded that the victim was an
Indian under federal law and that the charged crime
occurred within the boundaries of the Muscogee
Creek Reservation, the State did not concede that the
federal courts have exclusive jurisdiction over crimes
committed against Indians in Indian Country pursuant
to 18 U.S.C. §§ 1152. Rather, it argued that the State
has concurrent jurisdiction with federal courts over
crimes committed by non-Indian defendants against
Indian victims in Indian Country. We rejected the

App.4a
State’s argument regarding concurrent jurisdiction
in Bosse v. State, 2021 OK CR 3, ¶¶ 23-28, ___ P.3d
___. Based upon this precedent, we reject the State’s
argument regarding concurrent jurisdiction.
The District Court of Tulsa County did not have
jurisdiction to prosecute Mize and accordingly, we
grant relief on Proposition 4.
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED
WITH INSTRUCTIONS TO DISMISS. Pursuant to
Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE
is ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT
OF TULSA COUNTY THE HONORABLE
DAWN MOODY, DISTRICT JUDGE
APPEARANCES AT TRIAL
Stanley D. Monroe
Monroe & Keele, P.C.
15 West Sixth Street
Tulsa, OK 74119
Counsel for Defendant
Erik Grayless
James Asbill
Asst. District Attorneys
500 S. Denver Ave. Suite 900
Tulsa, Ok 74103
Counsel for State

App.5a
APPEARANCES ON APPEAL
James H. Lockard
Deputy Division Chief
Homicide Direct Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Taylor L. Ledford
Asst. Attorney General
313 N. E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
APPEARANCES ON REMAND
Erik Grayless
1st Asst. District Attorney
500 S. Denver Ave. Suite 900
Tulsa, OK 74103
Counsel for State
James H. Lockard
Deputy Division Chief
Homicide Direct Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant/Appellant

App.6a
Mike Hunter
Attorney General of Oklahoma
Julie Pittman
Asst. Attorney General
313 N. E. 21st Street
Oklahoma City, OK 73105
Counsel for State
Opinion by: Rowland, V.P.J.
Kuehn, P.J.: Concur
Lumpkin, J.: Concur in Results
Lewis, J.: Specially Concur
Hudson, J.: Specially Concur

App.7a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents,
but had cherry picked statutes and treaties, without
giving historical context to them. The Majority then
proceeded to do what an average citizen who had
been fully informed of the law and facts as set out in
the dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me to
resist unlawful orders. Chief Justice Roberts’ scholarly
and judicially penned dissent, actually following the
Court’s precedents and required analysis, vividly
reveals the failure of the majority opinion to follow

App.8a
the rule of law and apply over a century of precedent
and history, and to accept the fact that no Indian
reservations remain in the State of Oklahoma.1 The
result seems to be some form of “social justice” created
out of whole cloth rather than a continuation of the
solid precedents the Court has established over the
last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community
without you would go and buy land and put them on
it. Then they would be surrounded very likely with
thickly populated white section with whom they would
trade and associate. I just cannot get through my
mind how this bill can possibly be made to operate in
a State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.9a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and
no longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing
the totality of the law and facts.

App.10a
LEWIS, JUDGE, SPECIALLY CONCURRING
I write separately to note that I am bound by my
special writings in Bosse v. State, 2021 OK CR 3, ___
P.3d ___ and Hogner v. State, 2021 OK CR 4, ___
P.3d ___. Following the precedent of McGirt v.
Oklahoma, 140 S. Ct. 2452 (2020), Oklahoma has no
jurisdiction over persons who commit crimes against
Indians in Indian Country. This crime occurred within
the historical boundaries of the Muscogee (Creek)
Nation Reservation and that Reservation has not been
expressly disestablished by the United States Congress. Additionally, the crime occurred against Indian
victims, thus the jurisdiction is governed by the
Major Crimes Act found in the United States Code.
Oklahoma, therefore, has no jurisdiction, concurrent or otherwise, over the appellant in this case.
Thus, I concur that this case must be reversed and
remanded with instructions to dismiss. Jurisdiction is
in the hands of the United States Government.

App.11a
HUDSON, J., SPECIALLY CONCURS
Today’s decision dismisses a first degree manslaughter conviction from the District Court of Tulsa
County based on the Supreme Court’s decision in
McGirt v. Oklahoma, 140 S. Ct. 2452 (2020). This
decision is unquestionably correct as a matter of
stare decisis based on the Indian status of the victim
and the occurrence of this crime on the Creek Reservation. Under McGirt, the State has no jurisdiction
to prosecute Appellant for the homicide in this case.
Instead, Appellant must be prosecuted in federal
court. I therefore as a matter of stare decisis fully
concur in today’s decision. Further, I maintain my
previously expressed views on the significance of
McGirt, its far-reaching impact on the criminal justice
system in Oklahoma and the need for a practical
solution by Congress. See Bosse v. State, 2021 OK CR 3,
___ P.3d ___ (Hudson, J., Concur in Results); Hogner
v. State, 2021 OK CR 4, ___ P.3d ___ (Hudson, J.,
Specially Concurs); and Krafft v. State, No. F-2018340 (Okl.Cr., Feb. 25, 2021) (Hudson, J., Specially
Concurs) (unpublished).

App.12a
DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, AMENDED FINDINGS
OF FACT AND CONCLUSIONS OF LAW
(SIGNED NOVEMBER 5, 2020,
FILED NOVEMBER 6, 2020)
IN THE DISTRICT COURT IN AND FOR
TULSA COUNTY, STATE OF OKLAHOMA
________________________
JOHNNY EDWARD MIZE, II,
Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Tulsa County District Court Case No. CF- 2017-3891
Court of Criminal Appeals Case No. F- 2019-68
Before: Tracy L. PRIDDY, District Judge
This matter came on for a status conference on
September 25, 2020 pursuant to the remand order of
the Oklahoma Court of Criminal Appeals (“OCCA”)
issued August 19, 2020. James Lockard appeared on
behalf of Appellant, Johnny Edward Mize, whose
appearance was waived. Assistant Attorney General
Julie Pittman appeared for Appellee. Tulsa County
First Assistant District Attorney Erik M. Grayless
also appeared. An evidentiary hearing was not held

App.13a
pursuant to the parties’ announcement that they had
agreed and stipulated to facts supporting the issues
to be determined by this Court.
The Appellant, in his Brief-In-Chief asserted a
claim that the State of Oklahoma lacked subject
matter jurisdiction to try him as the victim in this
case, Jake Ulrich, was a citizen of the Cherokee
Nation and the crime occurred within the boundaries
of the Creek Reservation. Appellant’s claim raises two
questions: (a) the Indian status of his victim, Jake
Ulrich, and (b) whether the crime occurred in Indian
Country. These issues require fact-finding to be
addressed by the District Court per the OCCA Order
Remanding.
I. Jake Ulrich’s Status as an Indian
To determine the Indian status of the victim, the
OCCA directed the District Court to make findings of
fact as to whether (1) the victim had some Indian
blood, and (2) was recognized as an Indian by a tribe
or the federal government.1 The Court finds as follows:
Findings of Fact
1. Jake Ulrich was the named victim in the aboveentitled matter.
2. The parties hereto stipulated and agreed that
Jake Ulrich had 3/64ths Cherokee blood, and was
recognized as a citizen of the Cherokee Nation at the

1 United States v. Diaz, 679 F. 3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F. 3d 1277, 1280-81(10th Cir.
2001). Generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d
114, 116.

App.14a
time of the offense. The Cherokee Nation is an Indian
Tribal Entity recognized by the federal government.2
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The Court
adopted the Stipulations filed by the parties on
September 25, 2020 and made findings of fact thereon.
Jake Ulrich had 3/64ths Cherokee Blood. Although
the term “Indian” is not statutorily defined and various
terms such as “sufficient”3, “substantial”4, “significant
percentage of”5 or “some”6 have been used by courts
in an attempt to define the quantity of Indian blood
required to satisfy this inquiry, the OCCA mandate
ordered this Court to determine “whether the victim
had some Indian blood.”7 Thus, according to the term
used by the OCCA in its Order, this Court concludes
Jake Ulrich had some Indian blood.
Additionally, the Court answers the second part
of the inquiry in the affirmative. The Court adopted
the Stipulations and made findings of fact thereon.
Jake Ulrich was recognized as a citizen of the Cherokee
Nation at the time of the offense and the Cherokee
Nation is an Indian Tribal Entity recognized by the

2 Exhibit 1, Stipulations (2).
3 United States v. LaBuff, 658 F. 3d 873, 874-75 (9th Cir. 2011)
4 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).
5 Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
6 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012).
7 Order Remanding for Evidentiary Hearing August 19, 2020.

App.15a
federal government. Therefore, Jake Ulrich was recognized as an Indian by a tribe or the federal government.
Having answered both inquiries in the affirmative,
this Court concludes Shannon Jake Ulrich was an
Indian victim.
II. Whether the Crime
Occurred in Indian Country
The OCCA further ordered the District Court to
determine whether the crime occurred within the
boundaries of the Creek Reservation, referred to as
Indian Country.8 The Court finds as follows:
Findings of Fact
1. The parties hereto stipulated that the crime
occurred at 615 South 65th West Avenue, Tulsa, OK
74127.9
2. The parties further stipulated that the above
address is located within the boundaries of the Creek
Nation’s Reservation — boundaries established through
a series of treaties between the Creek Nation and the
United States.10
3. Additionally, these boundaries have been explicitly recognized as establishing a reservation as defined
by 18 U.S.C. § 1151(a), by the United States Supreme
Court.11
8 McGirt v. Oklahoma, 140 S. Ct. 2452 (2020); 18 U.S.C. §§ 1152,
1153.
9 Exhibit 1, Stipulations (1)(a).
10 Exhibit 1, Stipulations (1)(b).
11 Id.

App.16a
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the parties’ Stipulations and made
findings of fact thereon. The crime occurred at a
location identified by a specific address that is within
the boundaries of the Creek Nation’s Reservation.
These boundaries were established through a series
of treaties between the Creek Nation and the United
States, and are explicitly recognized as a reservation
defined by 18 U.S.C. § 1151(a). Based upon the
Supreme Court’s ruling in McGirt v. Oklahoma, 140 S.
Ct. 2452, 207 L.Ed.2d 985 (2020), this Court concludes
that the crime occurred in Indian Country.
WHEREFORE, this Court finds that Jake Ulrich
was an Indian victim and that the crime for which
Appellant was convicted occurred in Indian Country
for purposes of the General Crimes Act, 18 U.S.C.
§ 1152 and the Major Crimes Act, 18 U.S.C. § 1153.
IT IS SO ORDERED this 5th day of November,
2020.
/s/ Tracy L. Priddy
District Judge

App.17a
STIPULATIONS
(SEPTEMBER 25, 2020)
IN THE DISTRICT COURT IN AND FOR
TULSA COUNTY, STATE OF OKLAHOMA
________________________
JOHNNY EDWARD MIZE, II,
Defendant/Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff/Appellee.
________________________
Tulsa County District Court Case No. CF-2017-3891
Court of Criminal Appeals Case No. F-2019-68
Before: Tracy L. PRIDDY, District Judge
STIPULATIONS
In response to the questions this Court has been
directed to answer by the Court of Criminal Appeals,
the parties have reached the following stipulations:
1. As to the location of the crime, the parties
hereby stipulate and agree as follows:
a.

The crime in this case occurred at 615
South 65th West Avenue, Tulsa, OK 74127,
That address is within the boundaries of the
Creek Nation’s Reservation—boundaries
established through a series of treaties

App.18a
between the Creek Nation and the United
States.
b.

These boundaries have been explicitly recognized as establishing a reservation, as defined
by 18 U.S.C. § 1151(a), by the United States
Supreme Court in McGirt v. Oklahoma,
___ U.S. ___, 140 S.Ct. 2452, 207 L.2d 985
(2020).

2. As to the status of the victim, the parties hereby
stipulate and agree that the victim, Jake Ulrich, had
3/64ths Cherokee, Blood, and was recognized as a
citizen of the Cherokee Nation at the time of the crime.
The Cherokee Nation is an Indian Tribal Entity
recognized by the federal government.
Respectfully submitted,
/s/ Julie Pittman
Counsel for Plaintiff/ Appellee
/s/ James H. Lockhard
Counsel for Defendant/ Appellant
/s/ Erik M. Grayless
Tulsa County District Attorney’s Office
First Assistant District Attorney

App.19a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JOHNNY EDWARD MIZE, II,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2019-68
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Appellant Johnny Edward Mize, II appeals from
his conviction in Tulsa County District Court, Case
No. CF-2017-3891, for First Degree Manslaughter
(Heat of Passion), in violation of 21 O.S.2011, § 711(2).
The Honorable Dawn Moody, District Judge, presided
over Mize’s jury trial and sentenced him to twenty-

App.20a
five years imprisonment. Mize must serve 85% of his
sentence before he his [sic] eligible for parole.
In his Brief-in-Chief, filed on August 29, 2019,
Mize claims the District Court lacked jurisdiction to
try him. Mize argues that while he is not Indian, his
victim, Jake Ulrich, was a citizen of the Cherokee
Nation and the crime occurred within the boundaries
of the Creek Reservation. Mize, in his direct appeal,
relied on the jurisdictional issues addressed in Murphy
v. Royal, 875 F.3d 896 (10th Cir. 2017), which was
affirmed by the United States Supreme Court in Sharp
v. Murphy, 591 U.S. ___, 140 S.Ct. 2412 (2020) for
the reasons stated in McGirt v. Oklahoma, 591 U.S.
___, 140 S.Ct. 2452 (2020).1
Mize’s claim raises two separate questions: (a)
the Indian status of his victim, Jake Ulrich, and (b)
whether the crime occurred in Indian Country. These
issues require fact-finding. We therefore REMAND
this case to the District Court of Tulsa County, for an
evidentiary hearing to be held within sixty (60) days
from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Mize’s presentation of prima
facie evidence as to the victim’s legal status as an
1 On February 21, 2020, we held Mize’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following
the decision in McGirt, the State asked for additional time in
which to file a response to Mize’s jurisdictional claim. In light of
the present order, there is no need for an additional response
from the State at this time and that request is DENIED.

App.21a
Indian and as to the location of the crime in Indian
Country, the burden shifts to the State to prove it
has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, his victim, Jake Ulrich’s, status as an
Indian. The District Court must determine whether (1) Jake Ulrich has some Indian blood, and (2)
was recognized as an Indian by a tribe or the federal
government.2
Second, whether the crime occurred within the
boundaries of the Creek Reservation. In making this
determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Mize, within five (5) days
after the District Court has filed its findings of fact
2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d
114, 116.

App.22a
and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions
of law and supplemental briefing shall occur as set
forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Appellant’s Brief-in-Chief filed August 29, 2019;
Appellee’s Answer Brief filed December 13, 2019;
and Appellant’s Reply Brief filed January 2, 2020.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.
/s/ David B. Lewis
Presiding Judge

App.23a
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

